Table of Contents for the Appendix
APPENDIX a: The decision of the United States District Court for the Eastern
District of Michigan denying Petitioner habeas relief,
Appendix b- Sixth Circuit’s Judgment on Appeal.

APPENDIX A

THE JANUARY 29, 2021, JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN DENYING
PETITIONER’S PETITION FOR A WRIT OF
HABEAS CORPUS

i

' Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2391 Filed 01/29/21 Page 1 of 7

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

KEVIN A. CRAIG, #381110,
Petitioner,

Case Number: 2:17-CV-12830
HON. GEORGE CARAM STEEH

v.
THOMAS MACKIE
Respondent.

OPINION AND ORDER
(1)

DENYING IN PART AND TRANSFERRING IN PART
PETITIONER’S MOTION FOR RELIEF FROM
JUDGMENT (ECF No. 20),

(2)

DENYING MOTION FOR EXTENSION OF TIME
(ECF No. 23),

(3)

GRANTING APPLICATION TO PROCEED IN
FORMA PAUPERIS ON APPEAL (ECF No. 19),
AND

(4)

DENYING A CERTIFICATE OF APPEALABILITY

On July 15, 2020, the Court denied Petitioner Kevin A. Craig's
habeas corpus petition and denied a certificate of appealability. (ECF No.
16) Now before the Court are Petitioner’s Motion for Relief from Judgment
(ECF No. 20), Motion for Extension of Time to File Notice of Appeal (ECF
-1-

Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2392 Filed 01/29/21 Page 2 of 7

No. 23), and Application to Proceed In Forma Pauperis on Appeal (ECF
No. 19). The Court denies in part Petitioner’s motion for relief from
judgment. The Court also transfers to the Sixth Circuit Court of Appeals
the remainder of the motion because the Court concludes it is a successive
petition pursuant to 28 U.S.C. § 2244(b)(3)(A). The Court denies
Petitioner’s Motion for Extension of Time and grants the Application to
Proceed In Forma Pauperis on Appeal.
Discussion
A.

Motion for Relief from Judgment

In his habeas corpus petition, Petitioner challenged his convictions
for first-degree murder, assault with intent to murder, and possession of a
firearm during the commission of a felony. He raised three claims: (i) the
trial court abused its discretion in denying Petitioner’s motion for relief from
judgment; (ii) Petitioner’s right to a speedy trial was violated; and (iii) the
trial court abused its discretion in when it failed to address all claims raised
in Petitioner’s motion for relief from judgment. The Court denied the
petition. (ECF No. 16.) The Court also denied a certificate of appealability.
(Id.) Petitioner now seeks relief from judgment under Fed. R. Civ. P.
60(b)(1).
-2-

' Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2393 Filed 01/29/21 Page 3 of 7

As a threshold matter, the Court must decide whether it has
jurisdiction to consider Petitioner’s motion. Under the Antiterrorism and
Effective Death Penalty Act of 1996 (“AEDPA”), a district court does not
have jurisdiction to consider a petitioner’s “second or successive” habeas
petition unless the petitioner first obtains authorization from the Court of
Appeals. 28 U.S.C. § 2244(b)(3)(A); Franklin v. Jenkins, 839 F.3d 465,
473 (6th Cir. 2016). Under some circumstances, a Rule 60(b) motion filed
in a § 2254 action may be subject to AEDPA’s restrictions on second or
successive habeas petitions. Gonzalez v. Crosby, 545 U.S. 524, 530-32
(2005). The Sixth Circuit explained the difference between a “true” Rule
60(b) motion and a “second or successive” habeas application “cloaked in
Rule 60(b) garb” as follows:
A petitioner’s Rule 60(b) motion is a “second or successive”
habeas application “when it ‘seeks vindication of or ‘advances’
one or more ‘claims.’” Post v. Bradshaw, 422 F.3d 419, 424
(6th Cir. 2005) (quoting Gonzalez, 545 U.S. at 531-32, 125 S.
Ct. 2641). A “claim,” in turn, “is ‘an asserted federal basis for
relief from a state court’s judgment of conviction.”’ Ibid, (quoting
Gonzalez, 545 U.S. at 530, 125 S. Ct. 2641). For example, a
habeas petitioner’s Rule 60(b) motion advances claims “when
[the petitioner] seeks to add a new ground for relief or seeks to
present ‘new evidence in support of a claim already litigated.’”
Moreland, 813 F.3d at 322 (quoting Gonzalez, 545 U.S. at 531,
125 S. Ct. 2641). By contrast, a petitioner does not seek to
advance new claims “when [his] motion ‘merely asserts that a
previous ruling which precluded a merits determination was in
-3-

Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2395 Filed 01/29/21 Page 5 of 7

challenge to the Court’s merits determination. As such, it is a successive
habeas petition. Petitioner has not obtained appellate authorization to file
a second or successive habeas petition as required by 28 U.S.C. §
2244(b)(3)(A). The Court will transfer the motion to the Sixth Circuit Court
of Appeals for a determination whether he is authorized to file a successive
petition. See In Re Sims, 111 F.3d 45, 47 (6th Cir. 1997).
B.

Motion for Extension of Time

Petitioner has filed a motion for extension of time to file a notice of
appeal, but an extension is unnecessary pursuant to Federal Rule of
Appellate Procedure 4(a)(4)(A)(vi). Petitioner filed a notice of appeal after
filing his motion for relief from judgment but before the Court ruled on the
motion. (ECF No. 21.) Where a notice of appeal is filed before the Court
decides a timely Rule 60(b) motion, “the notice becomes effective to
appeal a judgment or order, in whole or in part, when the order disposing
of the last such remaining motion is entered.” Id. Petitioner’s notice of
appeal, therefore, was timely filed.
C.

Application to Proceed In Forma Pauperis on Appeal

Also before the Court is Petitioner’s application to proceed in forma
pauperis on appeal. Federal Rule of Appellate Procedure 24(a)(1)

-5-

Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2396 Filed 01/29/21 Page 6 of 7

provides that a party to a district-court action who desires to appeal in
forma pauperis must file a motion in the district court. An appeal may not
be taken in forma pauperis if the court determines that it is not taken in
good faith. 28 U.S.C. § 1915(a)(3). “[T]o determine that an appeal is in
„■

good faith, a court need only find that a reasonable person could suppose
that the appeal has some merit.” Walker v. O'Brien, 216 F.3d 626, 631
(7th Cir. 2000). The Court finds that an appeal may be taken in good faith.
D.

Certificate of Appealability

A certificate of appealability is necessary to appeal the denial of a
Rule 60(b) motion. See Johnson v. Bell, 605 F.3d 333, 336 (6th Cir. 2010)
(citing United States v. Hardin, 481 F.3d 924, 926 (6th Cir. 2007)). A
certificate of appealability may issue only if a habeas petitioner makes “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). When a court denies relief on the merits, the substantial
showing threshold is met if the petitioner demonstrates that “reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484-85 (2000).
Petitioner fails to show that reasonable jurists would find the Court’s
decision denying relief from judgment to be debatable or wrong and the

-6-

' Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2394 Filed 01/29/21 Page 4 of 7

error—for example, a denial for such reasons as failure to
exhaust, procedural default, or statute-of-limitations bar.”’ Post,
422 F.3d at 424 (quoting Gonzalez, 545 U.S. at 532 n.4, 125 S.
Ct. 2641).
Franklin, 839 F.3d at 473.
Petitioner seeks relief from judgment on two grounds. First, he
argues that the Court erred in procedurally defaulting his claims and failing
to address the merits. ^Because this claim does not attack the substance of
the Court’s resolution of the claims on the merits, it is not a successive
challenge to his conviction. See Gonzalez, 545 U.S. at 532, n.4. The Court
has jurisdiction to decide this claim.
Relief under Rule 60(b)(1) may be granted where the Court's
judgment was the result of “mistake, inadvertence, surprise, or excusable
neglect." Fed. R. Civ. P. 60(b)(1). Here, the basis for Petitioner’s
argument - that the Court failed to consider the merits of his claims based
upon procedural default - is incorrect. The Court chose to bypass the
procedural default question and proceeded directly to the merits of
Petitioner’s claims. (ECF No. 16, PagelD.2320-21.) Petitioner is not
entitled to relief from judgment on this claim.
Second, Petitioner’s other asserted basis for relief from judgment that the Court erred in denying his speedy trial claim - constitutes a
-4-

' Case 2:17-cv-12830-GCS-DRG ECF No. 25, PagelD.2397 Filed 01/29/21 Page 7 of 7

Court will deny a certificate of appealability.
II.

Conclusion
For the reasons stated, the Court:
(1) DENIES IN PART Petitioner’s Motion for Relief from
Judgment (ECF No. 20);
(2) ORDERS the Clerk of Court to transfer the Motion for
Relief from Judgment to the United States Court of Appeals for
the Sixth Circuit;
(3) DENIES a certificate of appealability;
(4) GRANTS Petitioner’s application to proceed in forma
pauperis on appeal (ECF No. 19); and
(5) DENIES Petitioner’s Motion for Extension of Time (ECF No.
23).

IT IS SO ORDERED.
Dated: January 29, 2021
s/George Caram Steeh
UNITED STATES DISTRICT JUDGE

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of record on
January 29, 2021, by electronic and/or ordinary mail and also on
Kevin A. Craig #381110, Saginaw Correctional Facility,
9625 Pierce Road, Freeland, Ml 48623.
s/Brianna Sauve
Deputy Clerk

-7-

APPENDIX B

THE MAY 20, 2021, ORDER OF THE SIXTH
CIRCUIT COURT OF APPEALS DENYING
PETITIONER’S MOTION FOR CERTIFICATE
OF APPEALABILITY.

2

UNITED STATES COURT OF APPEALS
FQR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
wvyw.ca6.uscourts.gov

Filed: May 20, 2021
Ms. Andrea M. Christensen-Brown
Office of the Attorney General
of Michigan
P.O.Box 30217
Lansing, MI 48909
Mr. Kevin A. Craig
Saginaw Correctional Facility
9625 Pierce Road
Freeland, MI 48623
Re: Case No. 20U844, Kevin Craig v. O'Bell Winn
Originating Case No. : 2:17-cv-1283Q
Dear Counsel and Mr. Craig,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Sharday S. Swain
Case Manager
Direct Dial No. 513-564-7027
cc: Ms. Kinikia D. Essix
Enclosure
No mandate to issue

No. 20-1844

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

KEVIN A. CRAIG,
Petitioner-Appellant,
v.
O’BELL T. WINN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

May 20, 2021
DEBORAH S. HUNT, Clerk

qrder

Before: DONALD, Circuit Judge.

Kevin A. Craig, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. This
court construes Craig’s notice of appeal as an application for a certificate of appealability
(“COA”). See Fed. R. App. P. 22(b)(1).
Following a joint trial before a single jury, Craig and his codefendant, Donovan Young,
were each convicted of first-degree premeditated murder, in violation of Michigan Compiled Laws
§ 750.316(l)(a); assault with intent to commit murder, in violation of Michigan Compiled Laws
§ 750.83; and possession of a firearm during the commission of a felony, in violation of Michigan
Compiled Laws § 750.227b. The defendants’ convictions arose from the June 12, 2011, shooting
death of Antonio Turner and nonfatal shooting of Dameil Richardson (who was a rival drug dealer
of Craig’s) in Detroit, Michigan. The trial court sentenced Craig as a third-habitual offender, see
Mich. Comp. Laws § 769.11, to life imprisonment for the murder conviction and a concurrent term
of 40 to 80 years’ imprisonment for the assault conviction, to be served consecutively to a twoyear term of imprisonment for the felony-firearm conviction. The Michigan Court of Appeals
affirmed Craig’s convictions on direct appeal. People v. Young, Nos. 310435/311045, 2014
WL 3745186, at *4, 11 (Mich. Ct. App. July 29, 2014) (per curiam), perm, app. denied, 859

No. 20-1844
-2N.W.2d 518 (Mich: 2015). Craig subsequently filed an unsuccessful motion for relief from
judgment pursuant to Michigan Court Rules 6.500 et seq.
In August 2017, Craig filed a § 2254 petition, in which he raised the following claims:
(1) the state trial court, when denying his motion for relief from judgment, erred by rejecting his
claims that counsel was ineffective for: (a) not arguing that his first-degree premeditated murder
conviction was supported by insufficient evidence, (b) failing to raise a judicial-misconduct claim,
(c) failing to raise prosecutorial-misconduct claims, (d) failing to challenge the jury instructions,
and (e) not objecting to the admission of certain phone calls into evidence; (2) counsel was
ineffective for failing to file a motion to dismiss the indictment on speedy-trial grounds; and (3) the
state trial court abused its discretion by failing to address all of the claims that he had raised in his
motion for relief from judgment. Bypassing any procedural-default analysis, the district court
denied each of Craig’s claims on the merits, dismissed his habeas petition with prejudice, and
declined to issue a COA.
Craig subsequently advanced two arguments in a motion for relief from judgment under
Rule 60(b)(1), which the district court denied in part and transferred in part to this court for
consideration as a motion for leave to file a second or successive habeas petition. Specifically, the
district court rejected Craig’s first argument-—that the district court erred in finding that he had
procedurally defaulted most of his habeas claims—and declined to issue a COA. However, the
district court determined that Craig’s second argument, which relitigated the merits of his speedytrial claim (Claim 2), was subject to the standard governing “second or successive”, habeas
petitions, see 28 U.S.C. § 2244(b)(2), because it constituted a challenge to the court’s previous
merits determination. See Gonzalez v. Crosby, 545 U.S. 524, 531 (2005). The district court
therefore transferred that portion of Craig’s motion to this court for consideration as a motion for
authorization to file a second or successive habeas petition. See 28 U.S.C. 2244(b)(3)(A); see also
In re Sims, 111 F.3d 45, 47 (6th Cir. 1997) (per curiam). The transferred action was docketed as
Case No. 21-1097.

No. 20-1344
-3-

As a preliminary matter, this court lacks jurisdiction to review the district court’s
adjudication of the first argument set forth in Craig’s Rule 60(b)(1) motion because Craig failed
to file a notice of appeal from that decision. See Fed. R. App. P. 3(c)(1)(B) (requiring the notice
of appeal to “designate the judgment, order, or part thereof being appealed”); see also Fed. R. App.
P. (4)(a)(4)(B)(ii) (requiring parties appealing rulings on post-judgment motions to “file a notice
of appeal, or an amended notice of appeal”); United States v. Universal Mgmt. Servs., Inc., 191
F.3d 750, 757 (6th Cir. 1999) (finding no jurisdiction to review issues raised in a motion for
reconsideration where the notice of appeal addressed only the district court s summary judgment
rulings).
With respect to Craig’s appeal from the district court’s dismissal of his habeas petition,
28 U.S.C. § 2253(c)(1)(A) states that “[ujnless a circuit justice or judge issues a [COA], an appeal
may not be taken to the court of appeals from . . . the final order in a habeas corpus proceeding in
which the detention complained of arises out of process issued by a State court. A COA may be
issued “only if the applicant has made a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322,336 (2003). In order to be entitled to
a COA, the movant must demonstrate “that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude that the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.
Claim. 1. Craig asserted five instances where trial or appellate counsel allegedly rendered
ineffective assistance. To establish ineffective assistance of counsel, a movant must show that his
attorney’s performance was objectively unreasonable and that he was prejudiced as a result.
Strickland v. Washington, 466 U.S. 668, 687 (1984); see also Shaneberger v. Jones, 615 F.3d 448,
452 (6th Cir. 2010) (holding that ineffective-assistance-of-appellate-counsel claims are governed
by the same Strickland standard as claims of ineffective assistance of trial counsel).

The

performance inquiry requires the defendant to “show that counsel s representation fell below an
objective standard of reasonableness.” Strickland, 466 U.S. at 688. The prejudice inquiry requires

No. 20-1844
-4the defendant to “show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694.
Craig first argued that counsel rendered ineffective assistance by not arguing that the
prosecution had failed to present sufficient evidence to establish either the premeditation and
deliberation elements of his first-degree premeditated murder conviction, or his identity as the
shooter. In reviewing the sufficiency of the evidence, “the relevant question is whether, after
viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia,
443 U.S. 307, 319 (1979). Federal habeas courts may not “reweigh the.evidence, re-evaluate the
credibility of witnesses, or substitute pur judgment for that of the jury.” Brown v. Konteh, 567
F.3d 191, 205 (6th Cir. 2009). In Michigan, “[t]o show first-degree premeditated murder, * [s]ome
time span between [the] initial homicidal intent and ultimate action is necessary to establish
premeditation and deliberation.’” People v. Gonzalez, 664 N.W.2d 159, 163 (2003) (second and
third alteration in original) (quoting People v. Tilley, 273 N.W.2d 471,474 (1979)). The time span
required “between the initial thought and ultimate action should be long enough to afford a
reasonable person time to take a ‘second look.’” Id.
The state trial court rejected this claim in its post-conviction decision, concluding that the
prosecution had presented sufficient evidence showing that Craig murdered Turner deliberately
and with premeditation. In reaching that conclusion, the state trial court cited Daraeil Richardson’s
trial testimony that Craig began shooting at him while chasing him on foot. Richardson also
testified that he and Turner were the only intended targets of Craig’s gunfire. The state trial court
also relied on the testimony of an eyewitness, Barbara Ingram, who testified that she saw Craig
pull out a gun and observed Turner standing with his hands up. Ingram testified that she briefly
ducked for cover, but when she looked up again, she saw Turner on the ground in a prone position.
She testified that Craig left the scene but eventually returned and shot Turner again. The state trial
court further noted that Craig shot Turner three times—once in the leg, once in the chest, and once
in the head. Considering this evidence, Craig failed to make a substantial showing that he was

'

No. 20-1844
-5prejudiced by counsel’s failure to raise this sufficiency-of-the-evidence argument. See Strickland,
466 U.S. at 694; see also Sutton v. Bell, 645 F.3d 752, 755 (6th Cir. 2011) (holding that counsel is
not ineffective for failing to pursue a meritless issue).
Next, Craig argued that counsel rendered ineffective assistance by not objecting to the state
trial court’s alleged bias. He specifically argued that the state trial court violated his due-process
rights by consistently ruling in the prosecution’s favor on evidentiary matters. Reasonable jurists
could not debate the district court’s determination that Craig was not prejudiced by counsel’s
failure to object because evidentiary rulings, standing alone, are insufficient to establish a claim of
judicial bias. SeeLitekyv. United States, 510 U.S. 540, 555-56 (1994).
Nor could reasonable jurists debate the district court’s rejection of Craig’s claim that
counsel was ineffective for not objecting to multiple instances of prosecutorial misconduct. Craig
alleged that the prosecutor, during her closing argument, improperly vouched for the credibility of
the prosecution’s witnesses and misstated evidence. When reviewing a prosecutorial-misconduct
claim in a habeas proceeding, “[t]he relevant question is whether the prosecutors’ comments ‘so
infected the trial with unfairness as to make the resulting conviction a denial of due process.’”
Darden v. Wainwright, 477 U.S. 168, 181 (1986) (quoting Donnelly v. DeChristoforo, 416 U.S.
637, 643 (1974)). Upon reviewing the record, the district court found that the prosecutor did not
improperly vouch for any witness, but merely “argued that the consistency of the testimony and
the physical evidence supported the testimony of the prosecution’s witnesses.” The district court
also rejected Craig’s argument that the prosecutor had “misstated the evidence of premeditation”
and the nature of Turner’s fatal injuries, noting that the prosecutor’s disputed statement—that
Craig stood over Turner and shot him at close range—was firmly grounded in Ingram’s trial
testimony. Reasonable jurists could not debate the district court’s conclusion that Craig was not
prejudiced by counsel’s failure to raise a prosecutorial-misconduct objection.
Craig argued that counsel was ineffective for not objecting to the jury instructions, which
purportedly eliminated any reference to a “not guilty” verdict and essentially directed the jury to
convict him. “To warrant habeas relief, jury instructions must not only have been erroneous, but

No. 20-1844
-6also, taken as a whole, so infirm that they rendered the entire trial fundamentally unfair.” Doan v.
Carter, 548 F.3d 449, 455 (6th Cir. 2008) (quoting Austin v. Bell, 126 F.3d 843, 846-47 (6th Cir.
1997)). The state trial court concluded that the “instructions, when viewed as a whole, adequately
protected [Craig’s] rights.” The district court found that the state trial court’s adjudication of this
claim neither contravened nor unreasonably applied federal law. The district court noted that the
state trial court properly instructed the jury that the prosecution was required to prove each element
of the charged offenses beyond a reasonable doubt and that “[njothing in the instructions could be
read to mean that the jury did not have die option of finding [Craig] not guilty of any or all of the
charged crimes.” Reasonable jurists could not debate the district court’s determination that Craig
was not prejudiced by counsel’s failure to object to the jury instructions.
Craig further argued that counsel was ineffective for not objecting to the state trial court’s
admission of recorded phone calls into evidence—namely, his jailhouse phone calls and Barbara
Ingram’s 911 call immediately following the shooting. Craig argued that the admission of these
recorded phone calls violated his rights under the Sixth Amendment’s Confrontation Clause. The
Confrontation Clause bars the “admission of testimonial statements of a witness who did not
appear at trial unless he was unavailable to testify, and the defendant had ... a prior opportunity
for cross-examination.” Crawford v. Washington, 541 U.S. 36, 53-54 (2004).
The state trial court determined that Craig’s recorded jailhouse phone calls were properly
admitted as admissions by a party-opponent because they consisted of Craig making statements
against his own interest. See Mich. R. Evid. 801(d)(2)(A). Consequently, those recordings, by
definition, were not hearsay. See id. The district court concluded that since the prohibition
annunciated in Crawford applies only to hearsay, that prohibition does not cover Craig’s jailhouse
phone calls. See United States v. Tolliver, 454 F.3d 660,664-66 (7th Cir. 2006). The district court
also concluded that Ingram’s 911 call was non-testimonial (and therefore not subject to the
Confrontation Clause) because “[h]er statements to the 911 operator ... were made in the context
of an ongoing emergency.” See Davis v. Washington, 547 U.S. 813, 822 (2006); see also Michigan
v. Bryant, 562 U.S. 344, 358 (2011). Considering the foregoing, reasonable jurists would not

No. 20-1844
-7debate the district court’s determination that Craig was not prejudiced by counsel’s failure to object
to the admission of these phone calls.
Claim 2.

Craig argued that counsel was ineffective for not moving to dismiss the

indictment on the basis that the seven-month delay between his arrest and the start of his trial
violated the Sixth Amendment’s speedy-trial guarantee. The Sixth Amendment provides that
criminal defendants “shall enjoy the right to a speedy and public trial.” U.S. Const, amend. VI.
To assess whether there has been a constitutional speedy-trial violation, courts balance four
unweighted factors: “Length of delay, the reason for the delay, the defendant’s assertion of his
right, and prejudice to the defendant.” Barker v. Wingo, 407 U.S. 514, 530 (1972). To make out
a Sixth Amendment violation, a defendant must first show a delay that is “uncommonly long,”
otherwise, “judicial examination ceases.” United States v. Ferreira, 665 F.3d 701, 705 (6th Cir.
2011) (quoting United States v. Robinson, 455 F.3d 602, 607 (6th Cir. 2006)). The delay must be
more than ordinary; rather, it must be presumptively prejudicial. Daggett v. United States, 505
U.S. 647, 651-52 (1992); Girts v. Yanai, 600 F.3d 576, 588 (6th Cir. 2010). A delay longer than
one year typically is assumed to be presumptively prejudicial, Doggett, 505 U.S. at 652 n.l; Girts,
600 F.3d at 588, and this court has held that a ten-month delay is “right at the line to trigger an
analysis of the remaining factors” for a constitutional speedy-trial violation, United States v.
Brown, 498 F.3d 523, 530 (6th Cir. 2007). Because the roughly seven-month delay relied on by
Craig falls short of this mark, reasonable jurists could not debate the district court’s determination
that Craig was not prejudiced by counsel’s failure raise a speedy-trial argument in a motion to
dismiss.
Claim 3. Finally, Craig argued that the state trial court abused its discretion when, contrary
to Michigan Court Rule 6.508(E), it failed to fully address all of the claims that he had raised in
his state motion for relief from judgment. Reasonable jurists would not debate the district court’s
determination that this claim failed to state a cognizable claim for relief under § 2254. It is wellsettled that claims that are based on perceived errors of state law are not cognizable on federal
habeas review. Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).

4 *

No. 20-1844

-8Accordingly, Craig’s COA application is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

